ClfB j^upratte Court of flje j&htb of ^louistaua
STATE OF LOUISIANA
No.2021 -KH-00051
VS.
JACOBIE A. GREEN AKA "COBIE"

IN RE: Jacobie A. Green - Applicant Defendant; Applying For Writ Of Certiorari,
Parish of Jefferson, 24th Judicial District Court Number(s) 15-3758, Court of
Appeal, Fifth Circuit, Number(s) 19-KA-123;

March 09,2021

Writ application denied - Untimely filed pursuant to La.S.Ct.R. X § 5.
JLW
JDH
SJC
JTG
WJC
JBM
PDG

Supreme Court of Louisiana
March 09,2021

wki kbrianMJC
Chief Deputyjylerk of Court
For the Court

STATE OF LOUISIANA

NO. I9-KA-123

VERSUS

FIFTH CIRCUIT

JACOBIE A. GREEN AKA "COBIE"

COURT OF APPEAL
STATE OF LOUISIANA

ON APPEAL FROM THE TWENTY-FOURTH JUDICIAL DISTRICT COURT
PARISH OF JEFFERSON, STATE OF LOUISIANA
NO. 15-3758, DIVISION "J"
HONORABLE STEPHEN C. GREFER, JUDGE PRESIDING

December 26, 2019

ROBERTA. CHAISSON
JUDGE
Panel composed of Judges Fredericka Homberg Wicker,
Marc E. Johnson, and Robert A. Chaisson

AFFIRMED
RAC
FHW
MEJ

COUNSEL FOR PLAINTIFF/APPELLEE,
STATE OF LOUISIANA
Paul D. Connick, Jr.
Terry M. Boudreaux
Gail D. Schlosser
Matthew R. Clauss
Laura S. Schneidau
COUNSEL FOR DEFENDANT/APPELLANT,
JACOBIE A. GREEN AKA "COBIE"
Meghan FI. Bitoun

CHAISSON, J.
Defendant, Jacobie A. Green a/k/a “Cobie,” appeals his convictions and
sentences for two counts of second degree murder and one count of attempted
second degree murder. On appeal, defendant contends that the trial court erred in
admitting his statement at trial, in denying his motion to quash the indictment, in
admitting speculative photographs, and in including the State’s requested jury
charge. Finding no merit to these arguments, we affirm defendant’s convictions
and sentences.
PROCEDURAL HISTORY
Defendant was charged, by grand jury indictment, with the second degree
murders of Johnell Ovide a/k/a “Ruga” (count one) and Trammel Marshall (count
two), in violation of La. R.S. 14:30.1, and the attempted second degree murder of
Blake Lamb, in violation of La. R.S. 14:27 and La. R.S. 14:30.1 (count three). i
Defendant pled not guilty at his arraignment. Following the resolution of some
pre-trial motions, the matter proceeded to trial before a twelve-person jury on
July 31,2018. At the conclusion of the trial on August 3, 2018, the jury
unanimously found defendant guilty as charged.
On September 12, 2018, following the denial of defendant’s motion for new
trial, the trial court sentenced defendant to life imprisonment on counts one and
two and fifty years imprisonment on count three, all without benefit of parole,
probation, or suspension of sentence, to run consecutively. Defendant now
appeals.

1 The original indictment, which was filed on September 24, 2015, also charged DartanyaO. Spottsville
a/k/a “Lo” and Johnell Walker a/k/a “Shadow” with two counts of second degree murder and one count of
attempted second degree murder. In addition, co-defendant Spottsville was charged with possession of a
firearm by a convicted felon, in violation of La. R.S. 14:95.1 (count four). A superseding bill of
indictment was filed on October 8, 2015, which adopted the original indictment with respect to co­
defendants Green, Spottsville, and Walker, and then additionally charged Archie Hulbert, III, with
perjury, in violation of La. R.S. 14:123 (count five).

I9-K.A-I23

1

FACTS
This case involves a double homicide and an attempted homicide that
occurred on June 21,2015, on the westbank of Jefferson Parish. On that date,
defendant, Dartanya Spottsville, and Johnell Walker went to Reginald Henry’s
apartment where they shot and killed Trammell Marshall and Johnell Ovide and
attempted to kill Blake Lamb.
At trial, Reginald Henry testified about the circumstances surrounding part
of the shooting incident. According to Mr. Henry, on June 21, 2015, he, his
cousins - Johnell Ovide and Trammell Marshall - and his friend, Blake Lamb,
were at his apartment located at 1617 Apache Drive in Harvey. At approximately
10:00 p.m., as Mr. Henry was in his bedroom getting ready to go to a party, he
heard a knock at the door. Mr. Henry came out of his bedroom, and Mr. Marshall
opened the door. Standing there were Jacobie Green (defendant), Dartanya
Spottsville (a/k/a “Lo”), and Johnell Walker (a/k/a “Shadow”), whom Mr. Henry
knew.2
The three wanted to know the location of the party and were allowed to enter
Mr. Henry’s apartment, at which point Mr. Lamb placed a gun on top of a stool.
Mr. Spottsville reached for the gun. At that same time, Mr. Lamb also reached for
it saying, “nah, ... they got one in the head.”’ Mr. Henry, who was walking toward
his bedroom, stopped and told Mr. Spottsville not to touch the gun. According to
Mr. Henry, Mr. Spottsville picked up the gun, pointed it toward Mr. Ovide, and
shot once, and then pointed it toward Mr. Lamb and shot him. In an attempt to
save his life, Mr. Henry ran to his bedroom, “hit the bed” and “went straight
through the window.”

2 Mr. Henry testified that he knew Shadow “from the area,” that he played ball with defendant in high
school, and that he knew “Dartanya stayed next to Jacobie.”
3 Testimony at trial explained that this phrase meant there was a bullet in the chamber.

I9-KA-I23

2

As he escaped, Mr. Henry heard more gunshots and “ow’s from the shots,
like it was hitting somebody.” During his testimony, when asked about the number
of gunshots he heard, Mr. Henry described that it “sounded like warfare.” Once
Mr. Henry got outside, he ran through the open gate of the apartment complex,
asked someone to call the police, and then sat down on the side of the stairwell
until the police arrived.
Blake Lamb also testified at trial regarding the circumstances surrounding
the shooting. According to Mr. Lamb, on June 21, 2015, at approximately
10:00 p.m., he, Mr. Marshall, Mr. Ovide, and Mr. Henry were at Mr. Henry’s
apartment where they were making plans to go to a daiquiri shop. While they were
smoking marijuana and playing on their phones, there was a knock at the door.
Someone opened the door, and defendant, Mr. Spottsville, and Mr. Walker were
allowed inside.
Mr. Lamb described that Mr. Ovide had a gun sitting on his lap and gave it
to Mr. Spottsville when he asked for it. After playing with the gun for a little
while, Mr. Spottsville gave it back to Mr. Ovide. Mr. Spottsville then asked Mr.
Lamb for his gun. Although Mr. Lamb let Mr. Spottsville take it, Mr. Lamb told
Mr. Spottsville to give him back his gun as he had “one in the head.” Mr.
Spottsville then pointed the gun at Mr. Ovide and fired it. Next, Mr. Spottsville
pointed the gun at Mr. Lamb and shot him in the shoulder. Mr. Lamb asserted that
when Mr. Spottsville started shooting, defendant and Mr. Walker also started
shooting, and Mr. Walker shot at him.4
Mr. Lamb recalled that when the shooting started, Mr. Marshall “dove” into
the kitchen and Mr. Henry ran to his bedroom. Mr. Spottsville went out the front

4 Mr. Lamb testified that when Mr. Spottsville started shooting, defendant did not seem surprised, but
rather appeared to be in control of the gun and to shoot deliberately. Mr. Lamb further testified that
before the shooting started, he saw defendant and Mr. Walker with guns on their sides.

I9-KA-I23

3

door followed by Mr. Ovide. Defendant and Mr. Walker went into the kitchen,
stood over Mr. Marshall, and started shooting Mr. Marshall. While Mr. Lamb was
sitting on the floor, he heard a lot of screaming and gunshots and asked defendant
what he was doing. According to Mr. Lamb, defendant came up to him, put the
gun to his face, told him to “shut the f*ck up,” and shot him in his mouth.
Defendant and Mr. Walker subsequently ran out of the apartment. Mr. Marshall,
who was crying, got up from the kitchen and walked out the front door. Mr. Lamb
walked in Mr. Henry’s bedroom but did not see anyone in there, at which point he
walked back to the front room and slid down the front door, thinking he was about
to die.
Deputy Christian Dabdoub of the Jefferson Parish Sheriffs Office was the
first officer to respond to the scene of the shooting. Upon his arrival, Deputy
Dabdoub saw three victims, who were later identified as Mr. Marshall, Mr. Ovide,
and Mr. Lamb. Deputy Dabdoub described that Mr. Marshall was lying on the
grass, writhing in pain, and covered in blood,3 that Mr. Ovide was lying still on the
ground and did not appear to be breathing,6 and that Mr. Lamb was sitting upright
and leaning against the doorframe of the apartment bleeding heavily from his face
and neck. Deputy Dabdoub noticed that the window to one of the rooms was
broken and that the blinds and curtains were hanging outside. Further, he noted
that the front door was open revealing the “chaos” inside, which included furniture
moved “all over the place,” bullet casings on the floor, and blood everywhere.

5 Mr. Marshall was subsequently brought to the hospital where he died. At trial, Dana Troxclair, a
forensic pathologist with the Jefferson Parish Coroner’s Office, testified that she performed an autopsy on
Mr. Marshall. She noted that Mr. Marshall sustained five gunshot wounds and that the fatal wound
occurred when a bullet entered his left upper chest and landed in the fifth rib on the left side. Ms.
Troxclair concluded that Mr. Marshall’s cause of death was multiple gunshot wounds and that his manner
of death was homicide.
h Ms. Troxclair also performed an autopsy on Mr. Ovide. She noted that Mr. Ovide sustained three
gunshot wounds and that the fatal wound occurred when a bullet entered the left chest, perforated the left
lung, went through the heart, and landed in the seventh rib on the right side. Ms. Troxclair concluded that
Mr. Ovide’s cause of death was multiple gunshot wounds and that his manner of death was homicide.

I9-KA-I23

4

Deputy Dabdoub spoke to Mr. Lamb, who had been shot in the face, and asked
him who had done this, and Mr. Lamb replied, “Cobie from Betty Street.” Deputy
Dabdoub then asked Mr. Marshall who had done this to him, and he said, “Cobie
from the Marrero Projects.”7
During his testimony, Deputy Dabdoub also relayed his interaction with Mr.
Henry at the scene of the shooting. He noted that Mr. Henry was hiding behind a
vehicle across the street, that he was crying, terrified, distraught, and shaking, and
that he had blood on his arms. Deputy Dabdoub testified that Mr. Henry described
the three men that came to the apartment that night, that Mr. Henry identified one
suspect as defendant and a second suspect by the nickname “Shadow,” and also
identified the 1900 block of Betty Street as the possible location of the suspects. 8
Mr. Henry was eventually brought to the detective bureau, at which time he
was interviewed by Detective lean Lincoln of the Jefferson Parish Sheriffs Office.
Based on the preliminary information given by Mr. Henry, Detective Lincoln
prepared photographic lineups of defendant and Mr. Walker. Mr. Henry positively
identified these two individuals as being present at the time of the shootings. Mr.
Henry also showed Detective Lincoln the addresses for those three individuals who
were inside his apartment at the time of the murders. With Mr. Henry’s assistance,
Detective Lincoln identified 1909 Betty Street as defendant’s residence and
learned that the residence next door, 1911 Betty Street, was associated with the
third perpetrator, later learned to be Mr. Spottsville. Detective Lincoln also
learned that 1477 Lincoln Avenue was the address associated with Mr. Walker.

1 Deputy Dabdoub testified that Betty Street has the reputation of being an area with a well-documented
history of having violent crime, firearm, and drug offenses. Further, he said that a reference to the
Marrero Projects is generally known as an area that includes Betty Street.
8 When Mr. Henry was asked whether he was able to provide the officers that evening with the first and
last names of the three people who had come to his apartment, he replied that he did not know everyone s
real names at the time.

I9-K.A-I23

5

They went back to the bureau, at which point Mr. Henry positively identified Mr.
Spottsville as the third perpetrator.
Based on the information learned through her investigation, Detective
Lincoln prepared a search warrant for Mr. Spottsville’s address, but no items were
collected from there. While there, the officers saw Denise Buras, defendant’s
mother, outside of 1909 Betty Street. Ms. Buras said that she was a resident of that
address and gave her consent to search it.
During the search, the officers identified a bedroom belonging to defendant.9
In that bedroom, Detective Lincoln and other officers observed two shooting
targets with holes in them hanging on the wall. The officers also located and
retrieved a dock .40 caliber magazine, a box of Blazer .40 caliber ammunition, an
empty box for a Clock model 22 handgun, and an empty box for a dock model 23
handgun. The officers also found, in one of the dock boxes, a receipt dated
June 15, 2015, for a dock model 23 handgun with a customer name of “J. Green”
on it. They also found inside the other dock box a receipt dated February 5, 2015,
with “J. Green” on it for a dock model 22 .40 caliber handgun. Detective Lincoln
asserted that .40 caliber casings were recovered from the crime scene10 and that no
dock handguns, boxes, or .40 caliber ammunition were located in Mr.
Spottsville’s bedroom.
At approximately 10:00 a.m. on June 23, 2015, defendant appeared at the
front desk of the detective bureau and initially spoke to Detective Gabriel Faucetta
to attempt to provide an explanation about the whereabouts of the firearms from

9 To corroborate defendant’s connection to the room, the officers took photographs of certificates with defendant’s
name on them hanging in the bedroom.
10 Detective Donald Zanotelli of the Jefferson Parish Sheriff’s Office testified that on June 21,2015, he went to the
crime scene at 1617 Apache where he recovered spent casings and projectile material, including a .380 caliber
cartridge, a .40 caliber casing, and a .380 caliber unlired cartridge case.

I9-KA-I23

6

the empty dock boxes that were collected from his bedroom. When Detective
Lincoln joined them approximately ten minutes later, defendant indicated that he
did not have possession of either of those weapons and had lost possession of at
least one of the guns several days before the shootings in the instant case, which
was several days after he bought it. Defendant claimed that he was sitting outside
his residence with a weapon in his lap when a stranger walked up and asked to see
it. He further claimed that he let the stranger see it, after which the stranger
allegedly pointed the weapon at him and then ran away with it.
Detective Lincoln noted suspicious similarities between that story and Mr.
Henry’s statement as to how the shootings first began. Detective Lincoln testified
that defendant initially told them he was not at the apartment that evening and that
he was with Archie Hulbert, who could corroborate his alibi. She further testified
that when she asked defendant about his whereabouts during the shootings, he lost
eye contact, distanced himself from looking at her, became nervous, and started
sweating. As Detective Lincoln believed defendant was withholding information,
she moved him to an interview room to videotape his statement. She read
defendant his rights, and defendant waived them."
In his statement,12 defendant denied being at the scene of the shootings for
many hours. At some point, he admitted being present at the scene at the time of
the shootings but insisted he did not have a gun. Later on, he admitted that he had
a gun and that he shot it three or four times during the incident. He claimed that

11 Detective Lincoln testified that although she began the interview, she had to leave due to a personal
emergency, As such, she explained that the interview was continued by Detective Gabriel Faucetta, as
well as other detectives.
12 Defendant’s videotaped statement was played for the jury at trial. Prior to its publication to the jury,
the parties stipulated that the entirety of the statement was twelve hours and twenty-seven minutes long.
However, the parties agreed to fast forward those portions where defendant is alone in the room and not
speaking.

I9-KA-I23

7

his head was turned while he was shooting, and therefore, he did not know who or
what he was shooting at.
At trial, there was also testimony from some expert witnesses. Detective
Solomon Burke, who worked for the Jefferson Parish Sheriffs Office digital
crimes unit, testified as an expert in the field of mobile device forensics. Detective
Burke relayed to the jury that he examined six mobile devices in connection with
the instant case and was able to extract data from defendant’s cell phone. He
identified three images that were extracted from that device (which are the subject
of defendant’s argument in Assignment of Error Number Three and will be
discussed therein). Detective Burke also testified that in February of 2015, there
were web searches for Glock products and a Google search for a thirty round
magazine for a Glock 22 on defendant’s phone.
Linda Tran, who was employed by the Jefferson Parish Sheriffs Office as a
firearm examiner, testified as an expert in the field of firearm ballistic
identification and analysis. Ms. Tran asserted that specimens/casings 3, 4, 5, 6, 8,
10, II, and 23 recovered from the crime scene were consistent with having been
fired by the same Glock firearm. Further, she stated that specimens/casings 9, 22,
and 48 recovered from the crime scene were fired in a different weapon, noting
that those specimens had teardrop firing pin impressions which were unique to the
Smith and Wesson pistol, mainly the M&P model. Ms. Tran indicated that
specimens 12, 24, 38, and 49 recovered from the crime scene were projectiles with
polygonal rifling, which was one of the features of a Glock pistol. She also
testified that specimen 38, which caused Mr. Ovide’s fatal wound, was consistent
with having been fired “in” a Glock firearm and that specimen 49, a projectile
removed from Mr. Lamb’s jaw, was consistent with having been fired ‘in a Glock
firearm. Ms. Tran testified that specimen 46 was a projectile recovered from Mr.

I9-KA-123

8

Marshall’s chest and that specimen had ballistic similarities with specimen 48 that
were consistent with a Smith and Wesson firearm.
DENIAL OF MOTION TO SUPPRESS STATEMENT
(Assignment ofError Number One)
In his first assigned error, defendant challenges the trial court’s denial of his
motion to suppress statement. He maintains that his statement was not given
pursuant to a valid waiver of rights and was not freely and voluntarily made.
Prior to trial, defendant filed a motion to suppress statement on the basis that
it was illegally and unlawfully obtained. In his memorandum in support thereof,
defendant maintained that his statement was not freely and voluntarily given based
on the length of the interrogation, the coercive tactics employed by the detectives,
and the failure to re-advise him of his Mirandaij rights once the interview turned
into a custodial interrogation.
At the suppression hearing, Detective Faucetta testified that on June 23,
2015, defendant voluntarily came to the detective bureau and informed the
receptionist that he wanted to speak to someone in the homicide section. Detective
Faucetta walked to the front desk reception area and proceeded with defendant to
his office. Defendant advised Detective Faucetta that during a search of his
residence, a box for a pistol had been collected and that the gun that belonged in
the box had been stolen from him. However, defendant claimed he had not
reported the gun as stolen and gave a vague story about the circumstances under
which the gun had been taken. According to Detective Faucetta, during this initial
voluntary interaction, defendant was considered a witness, not a suspect. Further,
Detective Faucetta testified when he first made contact with defendant, he did not
arrest defendant or indicate that he was not free to leave.

13 See Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d 694 (1966).

19-KA-123

9

After a few minutes, Detective Jean Lincoln joined defendant and Detective
Faucetta. She briefly spoke to defendant, and then thinking that he might be more
than a witness to the shootings, Detective Lincoln moved defendant to an interview
room and advised him of his Miranda rights utilizing a Jefferson Parish “Rights of
Arrestee or Suspects” form, which indicated that defendant was under
investigation. Detective Lincoln testified that she went over all of the rights with
defendant, that he initialed next to each right, and that he signed the form
indicating that he wished to waive his rights. She further testified that she did not
offer defendant anything of value or coerce or threaten him into waiving his rights
and giving a statement. Detective Faucetta, who participated in the interview,
likewise testified that he did not threaten or coerce defendant into making a
statement and did not offer him anything of value in exchange for a statement.
After considering the testimony presented, the video of the statement, and
the arguments of counsel, the trial court denied defendant’s motion to suppress
statement, giving extensive reasons. In sum, the trial court stated that regardless of
the determination of the custodial nature of the interrogation, defendant was
properly advised of his rights at the beginning of the interview and thereafter
signed the waiver of rights form.14 Further, the trial court stated that the police
actions during the course of the interview did not rise to the level of being
physically threatening or intimidating to the point that it would make defendant’s
statement involuntary. The court specifically noted that although the video
reflected “some close proximity” and “loud voices,” it did not reflect “any physical
threatened violence.” In addition, the trial court observed that defendant was

N The trial court explained that since defendant was advised of his rights at the beginning of the interview
process, the determination of the custodial nature of the interrogation was not essential to his ruling.
However, in the event that issue would be relevant on appeal, the trial judge expressed his belief that once
defendant was brought into the interview room and sat at the table, he was not free to leave, and the
interview constituted a custodial interrogation.

I9-KA-I23

10

allowed to leave the room on more than one occasion, was provided with food and
water during the course of the investigation, and was not prohibited from eating,
drinking, or using the restroom.
Pursuant to this ruling, defendant’s statement was introduced at trial.
Defendant now contends that his statement was improperly admitted at trial and
particularly takes issue with the trial court’s determination that the entire interview
constituted a custodial interrogation. Defendant asserts that he voluntarily went to
the detective bureau, that he was free to leave as evidenced by the officers’
testimony, and that the interview did not begin as a custodial interrogation. He
maintains that at some point over the course of his twelve hours at the detective
bureau, his interview turned into a custodial interrogation, at which point he should
have been re-advised of his Miranda rights. Since he was not so re-advised,
defendant asserts that his statement admitting his presence at the scene of the
shooting was not given pursuant to a valid waiver of rights and should have been
suppressed.
The State has the burden of proving the admissibility of a purported
confession or statement by the defendant. La. C.Cr.P. art. 703(D); State v. AriasChavarria, 10-116 (La. App. 5 Cir. 9/28/10), 49 So.3d 426, 433, writ denied, 102432 (La. 2/25/11), 58 So.3d 460. Before an inculpatory statement made during a
custodial interrogation may be introduced into evidence, the State must prove,
beyond a reasonable doubt, that the defendant was first advised of his Miranda
rights, that he voluntarily and intelligently waived them, and that the statement was
ma de freely and voluntarily and not under the influence of fear, intimidation,
menaces, threats, inducements, or promises. State v. Loeb, 09-341 (La. App. 5 Cir.
2/23/10), 34 So.3d 917, 924-25, writ denied, 10-681 (La. 10/15/10), 45 So.3d
1110.

I9-KA-123

II

A determination of voluntariness is made on a case-by-case basis, depending
on the totality of the facts and circumstances of each situation. The admissibility
of a confession or statement is a determination for the trial judge, and the judge’s
conclusions on the credibility and weight of the testimony relating to the voluntary
nature of the confession or statement are entitled to great weight and will not be
overturned unless unsupported by the evidence. Testimony of the interviewing
police officer alone may be sufficient proof that a defendant’s statements were
freely and voluntarily given. State v. Arias-Chavarria, 49 So.3d at 433.
Having reviewed the circumstances surrounding the taking of defendant’s
statement, the video of the statement, and the applicable jurisprudence, we find no
error in the trial court’s denial of defendant’s motion to suppress and its subsequent
admission of his statement at trial. Cases from both the Louisiana Supreme Court
and this Court support our conclusion and have addressed issues similar to the ones
raised by defendant herein relating to the length of the interview, police tactics
during the interview, and the necessity for the re-advisal of rights.
In State v. Blank, 04-204 (La. 4/11/07), 955 So.2d 90, cert, denied, 552 U.S.
994, 128 S.Ct. 494, 169 L.Ed.2d 346 (2007), the defendant voluntarily agreed to go
to the courthouse and be interviewed by police officers. The entire interrogation
lasted twelve hours. After the first three hours, during which time the defendant
denied involvement in the murders, he submitted to a polygraph examination. A
couple of hours later, a detective entered the room and, in a long and solemn
speech referencing the defendant’s deceased mother, calmly appealed to the
defendant to confess. In response, the defendant became emotional and slowly
began to confess to all of the homicides. On appeal, the defendant claimed that his
videotaped confession should be suppressed because it was illegally coerced,
noting the “harsh circumstances of the lengthy interrogation.” The Louisiana

I9-KA-I23

12

Supreme Court found that officers administered Miranda warnings before the
interview commenced and that the defendant indicated he understood those rights
and wished to waive them. It further found that the length of the interrogation did
not vitiate the voluntariness of the statement, noting that during the interrogation,
the defendant made several trips to the restroom and drank sodas throughout the
interrogation. Further, although the defendant expressed weariness, said he was
cold, and complained of back pain, he never requested to terminate the
interrogation or invoke his Miranda rights. The Court stated that the defendant’s
physical and mental distress did not render the statement involuntary. It also found
that the interrogators’ repeated admonishments to the defendant to tell the truth did
not render the statement involuntary.
In State v. Bradley, 03-384 (La. App. 5 Cir. 9/16/03), 858 So.2d 80, writs
denied, 03-2745 (La. 2/13/04), 867 So.2d 688 and 08-1951 (La. 1/30/09), 999
So.2d 750, the defendant contended that his statements should have been
suppressed because they were not legally obtained, noting the length of the
interview and the failure of detectives to advise him of his rights prior to each of
his statements. This Court found that the defendant was advised of his rights
before the first of the five statements was taken and that jurisprudence did not
mandate multiple warnings. It also found that although the interview lasted seven
hours, the length of the interview was not attributable to coercion, but rather, it was
precipitated by the defendant’s deception in his initial statements. This Court
concluded that the trial court did not err in denying the motion to suppress, noting
that the defendant knowingly and voluntarily waived his rights and never invoked
his right to cease talking to investigators.
In the present case, the evidence suggests that defendant voluntarily
appeared at the detective bureau to report that his gun, associated with the empty

I9-KA-I23

13

gun box found at his apartment during a search, had been stolen. When defendant
initially talked to Detective Faucetta and Detective Lincoln, he was not considered
a suspect in the shootings, was not under arrest, and was free to leave. However,
when defendant started providing information that the officers believed might be
false, he was brought into the interview room to begin a videotaped statement.
While defendant’s initial interaction with the detectives was clearly voluntary, we
agree with the trial court’s assessment that once defendant was brought into the
interrogation room and sat at the table, he was no longer free to leave, and the
nature of the interrogation became custodial. Prior to the beginning of this
interview, defendant was fully advised of his rights, which defendant indicated that
he understood and wished to waive. Based on these circumstances, there was no
need for the officers to re-advise defendant of his rights during the course of the
interview, and therefore, any failure in this regard did not render defendant’s
statement involuntary.
Likewise, we find that the length of the interview did not render defendant’s
statement involuntary. Although the statement was approximately twelve and onehalf hours long, the length of the interview was not attributable to coercion, but
rather, it was precipitated by defendant’s deception in denying his involvement in
the homicides for many hours. See Bradley, supra. With respect to the conditions
surrounding the statement, the videotaped statement reflects that defendant was
allowed to use the restroom and was given something to eat and drink. The video •
also shows that defendant rested and slept alone for periods of time in the chair he
was sitting in during the twelve and one-half hour period.
Lastly, we do not find that the interrogation tactics employed by the police
rendered defendant’s statement involuntary. Although the officers raised their
voices at defendant insisting that he tell the truth, the video does not indicate that

I9-KA-I23

14

defendant was in physical or mental distress, nor does it reflect physical threats or
violence against defendant. Also, the video shows that defendant never invoked
any of his Miranda rights.
In light of the foregoing, we find that defendant was first advised of his
Miranda rights, that he voluntarily and intelligently waived them, and that the
statement was made freely and voluntarily and not under the influence of fear,
intimidation, menaces, threats, inducements, or promises. See Loeb, supra.
Accordingly, we find that the arguments raised by defendant in this assigned error
are without merit and that the trial court did not err by denying defendant’s motion
to suppress statement.
DENIAL OF MOTION TO QUASH THE INDICTMENT
(Assignment of Error Number Two)
In his next assigned error, defendant argues that the trial court erred by
denying his motion to quash the superseding short form indictment. He contends
that the “bare bones indictment” is constitutionally deficient and fails to identify
whether the grand jury found that he acted with specific intent to kill or to inflict
great bodily harm.
Defendant was charged by grand jury indictment with two counts of second
degree murder and one count of attempted second degree murder. Specifically the
indictment provided that on or about June 21, 2015, defendant and his co­
defendants violated La. R.S. 14:30.1, in that they committed the second degree
murder of Johnell Ovide a/k/a “Ruga” and the second degree murder of Trammell
Marshall (counts one and two, respectively). The State also alleged that on June
21,2015, they attempted to commit the second degree murder of Blake Lamb, in
violation of La. R.S. 14:27 and La. R.S. 14:30.1.
Defendant filed a motion to quash the indictment as constitutionally
deficient. In that motion, defendant argued that the indictment was invalid because

I9-KA-123

15

it failed to charge the requisite elements of second degree murder. Specifically,
defendant contended that the indictment failed to allege the presence of specific
intent or any aggravating factor or circumstance that was required. The State filed
an opposition to defendant’s motion, arguing that La. C.Cr.P. art. 465(A)(32) and
(A)(7) provide that a short form indictment may be used to initiate prosecution for
second degree murder and attempted second degree murder, respectively.
Following a hearing, the trial court denied defendant’s motion to quash,
stating as follows:
And based upon the State’s opposition which the Court has
reviewed along with the defense’s motion initially obviously, it does
appear that there is binding authority upon the Court holding that the
short form of the indictment is sufficient to put the defendant on
notice of the crime with which he has been charged. And as such,
those motions have been denied and that denial has been upheld by
the appropriate courts. And the Court is going to abide by those prior
decisions and deny the motion.
Defendant now challenges this denial, contending that the short form
indictment is constitutionally deficient. He maintains that the due process clause
of the Fourteenth Amendment guarantees his right to have a grand jury consider
and return an indictment concerning each and every element of the crime for which
he is charged, prosecuted, and convicted. Thus, the indictment in this case, which
fails to identify whether the grand jury found that he acted with specific intent to
kill or to inflict great bodily harm, was deficient and should have been quashed.
Article I, Section 13 of the Louisiana Constitution requires that an
indictment inform a defendant of the nature and cause of the accusation against
him. State v. Chairs, 12-363 (La. App. 5 Cir. 12/27/12), 106 So.3d 1232, 1240,
writ denied, 13-306 (La. 6/21/13), 118 So.3d 413. This requirement is
implemented by La. C.Cr.P. art. 464, which provides:
The indictment shall be a plain, concise, and definite written
statement of the essential facts constituting the offense charged. It
shall state for each count the official or customary citation of the

I9-KA-123

16

statute which the defendant is alleged to have violated. Error in the
citation or its omission shall not be ground for dismissal of the
indictment or for reversal of a conviction if the error or omission did
not mislead the defendant to his prejudice.
La. C.Cr.P. art. 465 authorizes the use of specific short form indictments in
charging certain offenses, including second degree murder and attempted second
degree murder. La. C.Cr.P. art. 465(A)(32) provides the short form indictment for
second degree murder: “A.B. committed second degree murder of C.D.” La.
C.Cr.P. art. 465(A)(7) provides the short form indictment for attempted second
degree murder: “A.B. attempted to murder C.D.” Both the Louisiana Supreme
Court and this Court have consistently upheld the constitutionality of these short
forms. State v. Draughn, 05-1825 (La. 1/17/07), 950 So.2d 583, 624, cert, denied,
552 U.S. 1012, 128 S.Ct. 537, 169 L.Ed.2d 377 (2007); State v. Kyles, 16-295 (La.
App. 5 Cir. 12/7/16), 233 So.3d 150, 159.
In the instant case, the indictment complied with the short form set forth in
La. C.Cr. P. art. 465(A)(32) and (A)(7) as it provided that on or about June 21,
2015, Jacobie Green violated La. R.S. 14:30.1, in that he “did commit the second
degree murder of Johnell Ovide aka ‘Ruga’” (count one) and “did commit the
second degree murder of Trammell Marshall” (count two), and violated La. R.S.
14:27 and La. R.S. 14:30.1, in that he “did attempt to commit the second degree
murder of Blake Lamb” (count three). Moreover, when a short form indictment is
used, it is intended that the defendant use a bill of particulars to procure details as
to the statutory method by which he committed the offense. State v. Page, 08-531
(La. App. 5 Cir. 11/10/09), 28 So.3d 442, 453, writ denied, 09-2684 (La. 6/4/10),
38 So.3d 299.
On October 2, 2015, defendant filed omnibus motions, including a request
for discovery and bill of particulars. In its answer, the State asserted that it was
providing “open file” discovery to defendant, which consisted of all evidence in

I9-KA-123

17

the possession of the District Attorney’s Office including, but not limited to,
photographs, 9-1-1 tapes, telephone recordings, statements and/or jail telephone
recordings, and current and future file contents (excluding internal State documents
as described in La. C.Cr. P. art. 723). Defense counsel thereafter filed discovery
receipts acknowledging the receipt of discovery including, but not limited to,
reports related to the instant case, rap sheets and criminal history reports, calls for
service printout, initial incident report, supplemental reports, autopsy reports,
digital analysis report, scientific analysis report, arrest warrants, search warrants,
statements, arrest registers, and crime scene photos. As such, defendant was fully
aware of the nature of the charges against him, especially considering the large
amount of discovery the State provided to him.
Accordingly, we find no error in the trial court’s denial of defendant’s
motion to quash the indictment.
ADMISSION OF PHOTOGRAPHS
(Assignment ofError Number Three)
In this assigned error, defendant challenges the trial court’s admission at trial
of three photographs that were retrieved from his cell phone, which depict a hand
holding a gun, a hand holding a gun and pointing to a shooting range target, and
defendant pointing a gun at a shooting range target.
Prior to trial, defendant filed a motion in limine seeking to prohibit the
prosecution from introducing these images at trial. After the State filed a response,
the trial court conducted a hearing on defendant’s motion and ruled that the
photographs were admissible, stating in pertinent part:
All right. So the Court has, obviously, taken a look at the
memos in support and opposition to, as well as the photographs
involved. I would tend to agree with the State in this particular matter
in that I think the photographs are probative of the weapon involved in
the shooting the alleged weapon involved in the shooting and Mr.
Green’s connection to that weapon.

19-KA-I23

18

The State will have to prove intent as they’re going to attempt
to prove the specific intent to kill. I think the familiarity with the use
and the ability to use the gun effectively goes into that issue as well so
I think it is probative for those reasons.
And then clearly the photos depicting Mr. Green and the fact
that the items were taken from Mr. Green’s room is probative of the
fact that he is connected to the weapon and/or to that ability to use the
weapon effectively.
So for all those reasons, I think that the probative value
outweighs any prejudicial effect. I don’t believe it’s cumulative given
the nature of the case so the Court’s going to deny the motion.
Defense counsel objected and the photographs were subsequently admitted
into evidence at trial. Defendant now contends that the trial court erred in
admitting these speculative photographs, pointing out that the photographs were
cumulative as the State already had ample evidence linking him to two Glock
firearms. Further, defendant argues that the purpose for which they were admitted,
to show his ability to use the weapon effectively, was not relevant to the issue in
this case, which was whether he acted in self-defense or whether he formed
specific intent to kill or to inflict great bodily harm. In addition, defendant asserts
that since the photographs were not relevant to an issue in the case, their
prejudicial nature outweighed their probative value, and the error in the admission
of these photographs cannot be deemed harmless.
Evidence is relevant if it has “any tendency to make the existence of any fact
that is of consequence to the determination of the action more probable or less
probable than it would be without the evidence.” La. C.E. art. 401. All relevant
evidence is admissible, except as otherwise provided by law, and irrelevant
evidence is not admissible. La. C.E. art. 402. However, relevant evidence may be
excluded if its probative value is substantially outweighed by the danger of unfair
prejudice, confusion of the issues, or misleading the jury, or by considerations of
undue delay, or waste of time. La. C.E. art. 403.

I9-KA-123

19

Generally, photographs are admissible if they illustrate any fact, shed light
upon any fact or issue in the case, or are relevant to describe the person, place, or
thing depicted, subject to the test that their probative value outweighs any
prejudicial effect. State v. Battaglia, 03-692 (La. App. 5 Cir. 11/25/03), 861 So.2d
704, 710, writ denied, 04-1701 (La. 4/29/05), 901 So.2d 1058. The cumulative
nature of photographic evidence does not render it inadmissible if it corroborates
the testimony of witnesses on essential matters. In general, an appellate court
places great weight upon a trial court’s ruling on the relevancy of evidence, and
such a determination will not be reversed absent a clear abuse of discretion. Id. at
711.

In the instant case, the three photographs in question were retrieved from
defendant’s cell phone. The images depict defendant pointing to a shooting range
body target with holes in it at a shooting range (State’s Exhibits 203/206), a hand
holding a gun pointing toward a shooting range body target with holes in it (State’s
Exhibits 204/207), and a hand holding a gun (State’s Exhibits 205/208). At trial,
Detective Roniger testified that during his statement, defendant positively
identified State’s Exhibit 208 as the gun he used in the shooting and State’s Exhibit
207 as a photograph of his gun. In addition, Mr. Lamb testified that the gun
depicted in State’s Exhibit 208 looked like the same gun that defendant had during
the shootings.
In the present case, we find that the photographs were clearly relevant to
show the weapon defendant used in the shooting, especially since it was never
recovered. Further, the photographs were relevant with respect to the issue of
whether defendant had specific intent to kill or to inflict great bodily harm in that
they show defendant’s familiarity with, and skill in, shooting the weapon. The
images also were relevant in that Mr. Lamb identified the gun defendant used in

19-KA-l 23

20

one of the photographs. In addition, the probative value of these photographs in
showing the weapon involved in the shooting and defendant’s connection to that
weapon clearly outweighs any prejudicial effect. In light of these considerations,
we find no abuse of discretion in the trial court’s admission of these photographs
into evidence at trial.
Moreover, even if the photographs were improperly admitted, the erroneous
admission of irrelevant evidence is subject to a harmless error analysis. State v.
Carter, 14-943 (La. App. 5 Cir. 4/29/15), 170 So.3d 328, 334, writ denied, 151024 (La. 4/8/16), 191 So.3d 580. An error is considered harmless when the
verdict is surely unattributable to the error. State v. Williams, 09-48 (La. App. 5
Cir. 10/27/09), 28 So.3d 357, 365, writ denied, 09-2565 (La. 5/7/10), 34 So.3d 860.
In this case, any error in admitting the photographs was harmless considering the
overwhelming evidence of defendant’s guilt, namely, the testimony of Mr. Lamb
that defendant shot him and Mr. Marshall, the testimony of Deputy Dabdoub that
Mr. Marshall told him that defendant shot him, and defendant’s confession that he
was at the scene and shot his gun, which he positively identified in photographs
shown to him by a detective as the gun he used that night.
Accordingly, the arguments raised by defendant in this assignment of error
are likewise without merit.
JURY CHARGES
(Assignment ofError Number Four)
In his final assignment of error, defendant argues that the trial court erred by
including the State’s requested special jury charge about specific intent.
In the present case, pursuant to the State’s request, the trial court included
the following in the jury charges:
Deliberately pointing and firing a deadly weapon at close range
are circumstances which will support a finding of specific intent to
kill. State v. Broaden, 99-2124 (La. 2/21/01), 780 So.2d 349, 362.

19-KA-I23

21

In the jury charge conference, the trial court stated its reason for including
the requested charge:
The state had requested the inclusion of deliberately pointing
and firing a deadly weapon at close range are circumstances which
will support a finding of specific criminal intent based upon the very
specific testimony by Mr. Lamb regarding Mr. Green’s actions of
pointing the gun against his face and pulling the trigger. I think that
that definition of specific intent would be appropriate in this particular
case, so I wanted to make defense counsel aware that I had included it
and, as such, if you chose to object to it, just to give you the
opportunity to do so.
Defendant thereafter objected on the basis that the charge was extraneous
and already covered in the other charges. Despite defendant’s objection, this
charge was read to the jury. On appeal, defendant argues that this requested charge
was irrelevant, extraneous, and prejudicial. He particularly notes that the charge
was already covered in other jury charges regarding criminal intent. Further, he
maintains that this instruction, which mirrored Mr. Lamb’s account of the
shooting, could be viewed as giving credibility to his testimony instead of allowing
the jury to evaluate the circumstances on their own and could have been seen by
the jury as the trial court’s endorsement of the State’s allegations.
La. C.Cr.P. art. 802 requires the trial court to charge the jury as to the law
applicable to the case. Under La. C.Cr.P. art. 807, a requested special charge shall
be given by the court if it does not require qualification, limitation, or explanation,
and if it is wholly pertinent and correct. It need not be given if it is included in the
general charge or in another special charge to be given. State v. Franklin, 13-723
(La. App. 5 Cir. 5/28/14), 142 So.3d 295, 303, writ denied, 14-1396 (La. 2/13/15),
159 So.3d 462. The evidence presented at trial must support the requested special
charge. State v. Batiste, 06-824 (La. App. 5 Cir. 3/13/07), 956 So.2d 626, 636, writ
denied, 07-892 (La. 1/25/08), 973 So.2d 751. Furthermore, the Louisiana Supreme
Court has consistently held that a jury charge must be considered as a whole, and

19-KA-I23

22

particular expressions in a charge must be construed in the context of the entire
charge. Thus, it has declined to reverse the conviction on the ground of an
erroneous charge unless the disputed portion, when considered in connection with
the remainder of the charge, is erroneous and pre judicial. State v. Motion, 395
So.2d 1337 (La. 1981), cert, denied, 454 U.S. 850, 102 S.Ct. 289, 70 L.Ed.2d 139
(1981); State v. George, 346 So.2d 694 (La. 1977).
In the present case, we find no error in the trial court’s inclusion of the
State’s requested jury charge. Under one theory of second degree murder, the
State had to prove that defendant had the specific intent to kill or to inflict great
bodily harm with respect to counts one and two. With respect to count three,
attempted second degree murder, the State had to prove defendant had the specific
intent to kill.15 At trial, Mr. Lamb testified that defendant pointed a gun at his face
and shot him. Thus, the evidence presented at trial supported the requested special
charge. Further, the special charge did not require qualification, limitation, or
explanation; it was wholly pertinent and correct; and it was not included in the
general charge or in another special charge. Accordingly, the arguments raised by
defendant in this assigned error are without merit.
ERRORS PATENT REVIEW
The record was reviewed for errors patent, according to La. C.Cr.P. art. 920;
State v. Oliveaux, 312 So.2d 337 (La. 1975); and State v. Wetland, 556 So.2d 175
(La. App. 5th Cir. 1990). Our review reveals no errors that warrant corrective
action.
Accordingly, for the reasons set forth herein, defendant’s convictions and
sentences are hereby affirmed.
AFFIRMED

15 It is noted that the jury was charged with both theories of second degree murder.

19-KA-I23

23

